U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

May 1, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Agusto Niz-Chavez v. William P. Barr, No. 19-863
Dear Mr. Harris:
In the government’s brief in opposition to the petition for a writ of certiorari in this case,
we noted that the government had filed a petition for rehearing en banc in Banuelos-Galviz v. Barr,
953 F.3d 1176 (10th Cir. 2020). See Br. in Opp. 16. On April 20, 2020, the Tenth Circuit denied
the government’s petition for rehearing en banc in Banuelos-Galviz. The denial of rehearing in
Banuelos-Galviz lets stand a Tenth Circuit decision that conflicts with the Sixth Circuit’s decision
in this case. The government’s petition for rehearing en banc in Guadalupe v. Attorney General,
951 F.3d 161 (3d Cir. 2020), however, remains pending before the Third Circuit, and the en banc
Ninth Circuit has not yet issued its decision in Lopez v. Barr, 925 F.3d 396 (2019), petition for
reh’g en banc granted, 948 F.3d 989 (2020). See Br. in Opp. 15-16. The government’s brief in
opposition also explains that this case would be a poor vehicle for this Court’s review, because the
question presented is not outcome-determinative. See id. at 17-19.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0863
NIZ-CHAVEZ, AGUSTO
WILLIAM P. BARR, ATTORNEY GENERAL

SUFEN HILF
HILF & HILF, PLC
1775 W. BIG BEAVER ROAD
TROY , MI 48084
DAVID J. ZIMMER
GOODWIN PROCTER LLP
100 NORTHERN AVE.
BOSTON, MA 02210
617-570-1000
DZIMMER@GOODWINLAW.COM

